 OFFICE OF AUDIT
 REGION 7
 KANSAS CITY, KS




                   The City of St. Louis, MO

      American Recovery and Reinvestment Act of
      2009 Community Development Block Grant




2012-KC-1006                              SEPTEMBER 27, 2012
                                               U.S. DEPARTMENT OF
                            HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




                                                                      Issue Date: September 27, 2012

                                                                      Audit Report Number: 2012-KC-1006


TO:            Dee Ann Ducote, Director of the St. Louis Office of Community Planning and
               Development, 7ED

               //signed//
FROM:          Ronald Hosking, Regional Inspector General for Audit, Kansas City, KS, 7AGA


SUBJECT:       The City of St. Louis, MO, Did Not Effectively Manage Its Recovery Act
               Funding


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the City of St. Louis’ Community
Development Block Grant program funded under the American Recovery and Reinvestment Act
of 2009.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
913-551-5870.




                                                Office of Audit Region 7
                                  400 State Avenue, Suite 501, Kansas City, KS 66101
                                      Phone (913) 551-5870, Fax (913) 551-5877
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                          September 27, 2012

                                          The City of St. Louis, MO, Did Not Effectively Manage
                                          Its Recovery Act Funding



Highlights
Audit Report 2012-KC-1006


 What We Audited and Why                   What We Found

We selected the City of St. Louis, MO,    The City did not comply with applicable Recovery Act
for an American Recovery and              requirements for CDBG-R funds and did not properly
Reinvestment Act of 2009 Community        report its Recovery Act activities. Specifically, it (1)
Development Block Grant (CDBG-R)          approved contracts that did not comply with Federal
audit because it received the largest     procurement requirements, (2) did not adequately
amount of CDBG-R funds for an             enforce Davis-Bacon Act or Section 3 requirements,
entitlement community in the State of     and (3) reported incomplete and inaccurate
Missouri and ranked highest on our risk   information. As a result, the City used CDBG-R funds
assessment. Our audit objectives were     for unsupported expenses, failed to ensure that all
to determine whether the City complied    contractors paid the appropriate wages and
with applicable Recovery Act              disadvantaged workers received economic
requirements for CDBG-R funds and         opportunities, and did not have transparency in its
properly reported its Recovery Act        reported use of Recovery Act funds.
activities.

 What We Recommend

We recommend that the U.S.
Department of Housing and Urban
Development (HUD) require the City to
(1) support that more than $1.3 million
in Recovery Act contracts awarded was
granted at a reasonable cost and repay
any amount determined to be
unreasonable or ineligible, (2) review
all payments to its contractors’
employees to determine whether wage
restitution is owed, and (3) make any
needed corrections in
FederalReporting.gov. In addition, we
recommend that HUD assist the City in
receiving formal training on the issues
identified in this report.
                           TABLE OF CONTENTS

Background and Objectives                                                          3

Results of Audit
      Finding 1: The City Approved Improperly Procured Contracts                    4
      Finding 2: The City Did Not Enforce Davis-Bacon or Section 3 Requirements     7
      Finding 3: The City Did Not Accurately or Completely Report Its Recovery Act 11
                 Activities

Scope and Methodology                                                             14

Internal Controls                                                                 15

Appendixes
A.    Schedule of Questioned Costs                                                17
B.    Auditee Comments and OIG’s Evaluation                                       18




                                           2
                      BACKGROUND AND OBJECTIVES

The City of St. Louis receives Community Development Block Grant (CDBG) funding from the
U.S. Department of Housing and Urban Development (HUD). A City department known as the
Community Development Administration is responsible for administering the Federal funds for
housing, community, and economic development programs that strengthen the City and its
neighborhoods.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act,
which included a $1 billion appropriation in Community Development Block Grant (CDBG-R)
funds to States and local governments to expedite carrying out eligible activities under the
CDBG program. The Recovery Act funds were distributed to grantees that received CDBG
funding in fiscal year 2008 on a formula basis. The Recovery Act required the grant recipients to
obligate 100 percent of the funds by September 30, 2011 and expend 100 percent of the funds by
September 30, 2012.

In August 2009, the City received more than $5.3 million in CDBG-R funds. It had obligated
100 percent of its grant funds and expended 63 percent as of March 31, 2012. The City used
these funds to carry out 19 projects. It funded activities that included improvements of
sidewalks, roads, and parking lots; installation of street lighting; creation of a farmer’s produce
market; construction of new housing; rehabilitation of a community center; and acquisition of
distressed properties.

Our objectives were to determine whether the City complied with applicable CDBG-R
requirements and properly reported its Recovery Act activities.




                                                  3
                                RESULTS OF AUDIT


Finding 1: The City Approved Improperly Procured Contracts
The City approved two contracts that did not comply with Federal procurement
requirements. This condition occurred because its staff misunderstood the requirements. As a
result, the City obligated more than $1.3 million in Recovery Act funds for improper contracts
and could not show that the amounts were reasonable.


 Contracts Improperly Procured

              Design Build Contract
              The City allowed a subrecipient to enter into a contract with a design builder
              without advertising for bids and ensuring competition as required by 24 CFR
              (Code of Federal Regulations) 84.43 and its subrecipient agreement. Regulations
              at 24 CFR 84.43 state that all procurement transactions must be conducted in a
              manner to provide, to the maximum extent practical, open and free
              competition. In addition, the subrecipient agreement between the City and the
              subrecipient states that requests for bids or proposals must be formally advertised
              for all contracts in excess of $100,000. The subrecipient selected the design
              builder to renovate an old school building for use as a cultural center without
              advertising. The City later approved the contractor selection.

              The subrecipient did not document a cost analysis when it received the sole bid as
              required by 24 CFR 84.45, which states that some form of cost or price analysis
              must be made and documented in the procurement files in connection with every
              procurement action.

              The City allowed the design builder that developed the draft specifications and
              scope of work to be selected for the contract, violating the requirements of 24
              CFR 84.43, which state that to ensure objective contractor performance and
              eliminate unfair competitive advantage, contractors that develop or draft
              specifications, requirements, statements of work, invitations for bids, or requests
              for proposals must be excluded from competing for such procurements. In this
              case, the design builder developed the specifications, requirements, and statement
              of work for the project. This role would have precluded it from competing for the
              developer contract had it been properly advertised. This company was ineligible
              to receive this contract.

              Public Works Contract
              The City entered into a public works contract with a contractor to construct
              sidewalks, improve lighting, and provide other right-of-way improvements
              without advertising for bids as required by 24 CFR 85.36 and its cooperation

                                               4
             agreement. Both of these require that bids be advertised to ensure the maximum
             amount of competition and the best price. The City initially issued a request for
             bids and then canceled it before the bids were due. It then noncompetitively
             awarded the contract to a contractor with which it had a previous relationship,
             using an emergency work authorization. This work was in the substantial
             amendment submitted to HUD in 2009 and, therefore, was not an emergency
             work item in 2010.

Staff Misunderstood Some
Requirements

             For the cultural center rehabilitation contract, the City believed that the
             subrecipient’s prior contractual relationship with the design builder negated the
             need for soliciting bids. The City stated that it believed that since the contractual
             relationship occurred before CDBG funds were given to the subrecipient, CDBG
             procurement rules did not apply.

             The City decided it wanted to complete the sidewalk construction work before the
             new school year started and, therefore, canceled the solicitation for bids so the
             project could be completed more quickly. Just before it canceled the solicitation
             for bids, its staff found information causing it to believe that the CDBG-R
             program rules allowed it to award the contract to a company with which it had a
             relationship.

Funds Obligated for Improper
Contracts

             As a result of the City’s misunderstanding of the program rules, it obligated more
             than $1.3 million in CDBG-R funds for improper contracts and could not show
             that the amounts were reasonable.

                       Activity                     CDBG-R amount
                       Design build contract            $1,096,000
                       Public works contract              $273,308
                       Total                            $1,369,308

             Since the City did not perform all of the required contract cost analysis or allow
             adequate competition and allowed an ineligible company to participate in the
             procurement, it could not show that contracts totaling more than $1.3 million were
             reasonable.

Conclusion

             The City approved contracts that did not comply with Federal procurement
             requirements. These requirements include the performance of cost analyses and

                                               5
          solicitation of bids. As a result, the City could not support that all contracts were
          awarded at a reasonable cost. The City must ensure that all procurements meet
          Federal requirements.

Recommendations

          We recommend that the Director of the St. Louis Office of Community Planning
          and Development require the City to

          1A. Support that CDBG-R contracts awarded totaling $1,369,308 were granted at
              a reasonable cost and repay the U.S. Treasury from non-Federal funds any
              amount determined to be unreasonable or paid to ineligible parties.

          1B. Provide its staff with procurement training.




                                            6
Finding 2: The City Did Not Enforce Davis-Bacon or Section 3
Requirements
The City did not adequately enforce Davis-Bacon Act or Section 3 requirements. It was not
aware that some of the projects were federally funded and subject to these requirements. As a
result, the City had no assurance that contractor employees received appropriate wages or that
economically disadvantaged people and businesses received the economic opportunities afforded
by the Recovery Act.


 Requirements Not Enforced

              The City did not adequately enforce Davis Bacon Act or Section 3 requirements.
              It approved 14 contracts that were subject to the Davis-Bacon prevailing wage
              rates with more than $4 million in CDBG-R funding. HUD Handbook 1344.1,
              REV-1, requires the City to monitor enforcement of labor standards for the
              payment of prevailing wage rates in contracts over $2,000 involving Federal
              funds. The amounts awarded for the contracts ranged from $95,000 to more than
              $1 million.

              The City approved 12 contracts that were subject to Section 3 requirements of the
              Housing Act of 1968, as amended. Section 3 requires that employment and other
              economic opportunities generated by HUD assistance or HUD-assisted projects
              covered by Section 3 are, to the greatest extent feasible, directed to low- and very
              low-income persons, particularly persons who receive HUD housing assistance.
              Regulations at 24 CFR Part 135 state that Section 3 applies to community
              development assistance that is used for housing rehabilitation, housing
              construction, and other public construction exceeding $200,000.

 Davis Bacon Issues

              Wages and Fringe Benefits
              For 6 of the 14 contracts, the City did not verify that the contractors paid Davis-
              Bacon wages and fringe benefits to their employees, although there were
              indications that the wages were not being paid. In these cases, the weekly payroll
              records documented wage rates that were lower than the prevailing wage rates for
              the worker classification. In addition, the City used an outdated wage
              determination for one contract. HUD Handbook 1344.1, REV-1, section 3-3,
              requires the City to review weekly payroll records to ensure compliance with
              labor standards. In addition, section 1-6 requires the City to ensure that all
              contracts contain the applicable U.S. Department of Labor wage determination.




                                                7
            Late or Missing Certified Payroll Records
            The City did not receive certified payroll reports from 8 of 14 contractors in a
            timely manner, if at all. HUD Handbook 1344.1, REV-1, section 3-3, requires the
            City to promptly obtain weekly payroll records and review them upon receipt. In
            one case, the payroll records were submitted by the contractor 8 months late. In
            another case, the contractor did not submit payroll records of four of its
            subcontractors, and the City did not document steps taken to obtain the records.

            Missing Employee Interviews
            The City did not document employee interviews for eight contracts and only one
            interview for one contract. HUD Handbook 1344.1, REV-1, section 3-2, requires
            the City to conduct and document onsite interviews with up to 10 percent of the
            workers in all trades for projects longer than 6 months and a representative
            sample for projects of a shorter duration.

            Missing Apprentice Documentation
            The City did not document that all apprentices working for six contractors were
            registered with the applicable agencies and were paid proper wages. HUD
            Handbook 1344.1, REV-1, section 2-10, states that to be paid less than the
            prevailing wages, apprentices must be registered with the U.S. Department of
            Labor, Employment and Training Administration, Bureau of Apprenticeship and
            Training, or with a State apprenticeship agency recognized by the Bureau, or
            certified by these agencies as eligible for probationary employment.

            Lack of Enforcement
            The City did not withhold payments from any of the 12 contractors that failed to
            provide timely certified payroll reports, provide the required apprenticeship
            documentation, or pay the appropriate wages. HUD Handbook 1344.1, REV-1,
            section 3-4, allows the City to withhold funds from contractors to ensure
            compliance with Davis-Bacon requirements.

Section 3 Issues

            The City did not ensure that all solicitations and contracts included a Section 3
            clause. Regulations at 24 CFR 135.32(b) require the City to incorporate the
            Section 3 clause into all solicitations and contracts. Four of twelve contracts did
            not incorporate the Section 3 clause.

            The City did not submit its Section 3 summary reports on time. Regulations at 24
            CFR 135.90 require the City to submit its Section 3 summary report by January
            10 of each year, since it was not required to submit an annual performance report
            for CDBG-R activities. For 2010 and 2011, the City submitted its reports on
            March 29, 2011, and March 28, 2012, respectively.




                                              8
Unaware Of All Requirements

             The City’s staff was not aware that some of the projects were federally funded
             and subject to the Davis-Bacon and Section 3 requirements. The City stated that
             there was a communication breakdown between the office and field personnel,
             causing field personnel to be unaware that the projects were federally funded.
             The City did not have procedures and controls to ensure that all required actions
             were completed before it approved contracts and payments.

             City staff was not aware of all Section 3 requirements. Staff did not realize that
             the deadline for submitting Section 3 reports for CDBG-R activities was January
             10 of every year and believed that the reports were due in March, along with the
             City’s consolidated annual performance report. City staff did not realize that
             CDBG-R activities were not reported on the annual performance report and,
             therefore, had to be submitted by January 10.

Appropriate Wages Not Paid

             The City had no assurance that contractor employees received appropriate wages
             or that economically disadvantaged people and businesses received the economic
             opportunities afforded by the Recovery Act. Payment of Davis-Bacon wages
             ensures that workers are adequately compensated for their labor. For example, a
             cement mason did not receive the appropriate wages across three separate
             contracts. He was underpaid $0.35 per hour for two contracts without explanation
             and $0.70 per hour for the last contract because the City used an outdated wage
             decision. Further, Section 3 enables economically disadvantaged people to work
             on federally funded contracts, and there was no assurance that opportunities were
             made available to these people. Only 22 percent of the new jobs created in 2011
             by the City went to Section 3 residents, much less than the HUD goal of 30
             percent. This percentage could have been higher if the City had incorporated the
             Section 3 clause into all of the covered contracts.

Conclusion

             The City did not always enforce the Davis-Bacon prevailing wage rate or Section
             3 requirements. It did not always ensure that workers were paid their proper
             wages and benefits, receive and verify all payroll records, or impose penalties
             when required. It did not always incorporate the Section 3 clause into its
             contracts or submit its Section 3 report on time. The City must ensure that it
             remedies this situation.




                                              9
Recommendations

          We recommend that the Director of the St. Louis Office of Community Planning
          and Development

          2A. Require the City to review all payments to its contractors’ employees to
              determine whether wage restitution is owed and provide the review results to
              HUD for review and approval. If wage restitution is required, the contractors
              should make the restitution.

          2B. Require the City to develop and implement adequate written procedures and
              controls to ensure that its contractors’ employees are paid at the appropriate
              Federal prevailing wage rates and it incorporates and enforces Section 3
              requirements in its contracts.

          2C. Provide the City with Davis-Bacon and related acts as well as Section 3
              training.




                                          10
Finding 3: The City Did Not Accurately or Completely Report Its
Recovery Act Activities

The City did not accurately or completely report its Recovery Act activities. This condition
occurred because the City was unaware of all of the requirements for reporting Recovery Act
activities and did not always properly supervise its staff. As a result, it provided inaccurate
Recovery Act information to the public and lacked transparency.


 Improper Reporting

               The City did not accurately or completely report its Recovery Act activities in
               FederalReporting.gov. According to the Recovery Act reporting requirements in
               Section 1512, grant recipients are required to report information quarterly,
               including the number of jobs created or retained, the total amount of grant funds
               expended and received, and specific information on projects.

               Incomplete Job Information
               The City did not accurately report the number of jobs created or retained in
               FederalReporting.gov. It omitted job creation and retention information for 11
               infrastructure projects for all quarterly reports submitted before the fourth quarter
               of 2011. Seven of these projects were substantially complete, as their completion
               status ranged between 98 and 100 percent on November 22, 2011.

               Inaccurate Expenditures and Receipts
               The City did not accurately report the total amount of Recovery Act funds
               expended or received. It did not accurately report the amount of CDBG-R funds
               drawn down during the entire audit period as shown in the table below.

                                 Recovery Act CDBG-R funds received
                 Ending date for      Actual      Reported amount
                reporting period amount received      received                       Difference
                4th quarter 2009         -                -                               -
                1st quarter 2010         -                -                               -
                2nd quarter 2010         -            24,842.00                       24,842.00
                3rd quarter 2010    237,085.28       230,252.00                      (6,833.28)
                4th quarter 2010    237,085.28       923,339.00                      686,253.72
                1st quarter 2011   1,116,711.88     1,142,088.00                      25,376.12
                2nd quarter 2011   1,388,801.00     1,795,915.00                     407,114.00
                3rd quarter 2011   1,807,376.17     2,283,711.00                     476,334.83
                4th quarter 2011   2,789,380.90     2,973,273.00                     183,892.10
                1st quarter 2012   3,318,898.95     3,343,675.00                      24,776.05

                                                11
            In addition, the City did not maintain sufficient documentation to support the
            expenditures it reported. It was unable to provide all supporting documentation
            for the expenditures reported from 2009 through the fourth quarter of 2011.

            Late Quarterly Reports
            The City did not always submit quarterly reports to FederalReporting.gov when
            due. Section 1512 of the Recovery Act requires that no later than 10 days after
            the end of each calendar quarter, each recipient of Recovery Act funds submit its
            quarterly report. The City submitted the report for the fourth quarter of 2010 on
            February 15, 2011, when it was due on January 10, 2011, and the report for the
            first quarter of 2012 on April 13, 2012, when it was due on April 10, 2012.

            Late Environmental Reporting
            The City did not report the results of its environmental reviews for CDBG-R-
            funded activities in the Recovery Act Management and Performance System until
            September 23, 2011, when a majority of the reviews were completed by
            December 4, 2009. This information system was created by HUD to collect and
            manage data related to the Recovery Act, and one of its key functions is the
            collection of required National Environmental Policy Act (NEPA) reporting
            data. All entities that receive Recovery Act funding must report their NEPA
            compliance in the system as soon as possible and update any changes as they
            occur.

            Incomplete Subaward Information
            The City did not start reporting subaward information until the first quarter
            reporting period in 2012, and it did not include all of the activities it was
            responsible for. Section 1512 of the Recovery Act required the City to report a
            detailed list of all projects or activities for which Recovery Act funds were
            expended or obligated, including the name of the project; the description of the
            project; the completion status of the project; an estimate of the number of jobs
            created and retained; and the purpose, total cost, and rationale for infrastructure
            investments made by State and local governments. The City did not start listing
            detailed subaward information such as the amount allocated and disbursed to each
            project until the first quarter of 2012, and it did not provide subaward details for
            11 infrastructure projects it managed.

City Staff Unaware of All
Requirements

            The City was unaware of all of the requirements for reporting Recovery Act
            activities and did not always properly supervise its staff. The City did not know
            all of the requirements for reporting CDBG-R activities, such as reporting the
            amount of vendor payments over $25,000, the organizations that received
            subawards, and other subaward information. In addition, it did not always
            properly supervise its staff responsible for providing the reports to

                                             12
             FederalReporting.gov. It did not thoroughly verify the reports submitted and,
             therefore, did not realize that it submitted incomplete and inaccurate
             information. The responsible staff person left the City just before the audit
             started.

Incomplete and Inaccurate
Information Reported

             The public did not have access to accurate grant information related to the City’s
             expenditures of CDBG-R funds or the projects and activities funded with CDBG-
             R funds. As a result, the City’s use of these funds was not transparent.

Conclusion

             The Recovery Act required an unprecedented level of transparency, and the City
             failed to provide the public with the required level of detail.

Recommendations

             We recommend that the Director of the St. Louis Office of Community Planning
             and Development

             3A. Assist the City in making needed corrections to its Recovery Act information
                 in FederalReporting.gov.




                                             13
                        SCOPE AND METHODOLOGY

To accomplish our objectives, we performed the following steps as they related to the
City’s CDBG-R funds:

   •   Reviewed relevant laws, regulations, and HUD guidance.
   •   Reviewed the City’s CDBG-R agreements, budget, substantial amendments to its
       consolidated plan, and procurement policies and procedures.
   •   Reviewed Recovery Act reporting documents and reports submitted to
       FederalReporting.gov.
   •   Interviewed City and HUD staff.

We reviewed the City’s entire CDBG-R grant totaling nearly $5.3 million. The grant was used
to fund 19 projects and the City’s administrative costs. We reviewed each of the project files,
including the advertisement; solicitations; bid documents; debarment, suspension, and limited
denial of participation verifications; and “buy American” documentation. We also reviewed
contract approval documents, cost or price analyses, and programmatic field reports.

Additionally, we reviewed employee interviews, certified payroll records, and other documents
to determine whether the City enforced fair labor standards. We reviewed Section 3 reports and
Section 3 language included in the contracts to determine whether the City complied with
Section 3 requirements. We reviewed the environmental review records to determine whether
the City conducted the reviews in a timely manner. We also reviewed the projects’ vouchers,
draw requests, and invoices to determine whether the funds were expended for the planned
purposes.

We did not use computer-generated data to support our audit conclusions. We compared the
source documentation maintained in the City’s files to data reported in HUD’s Line of Credit
Control System, Integrated Disbursement and Information System, and FederalReporting.gov.
All conclusions were based on source documentation reviewed during the audit.

We performed our audit between April and August 2012 at the City’s old office location at 1015
Locust Street, Suite 1200, St. Louis, MO, and the new location at 1520 Market Street, Suite
2000, St. Louis, MO. Our audit generally covered the period October 1, 2009, through March
31, 2012.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               14
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •      Controls over managing CDBG-R contracts.
               •      Controls over properly reporting Recovery Act information.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

               •      The City did not have adequate controls to ensure that its staff complied
                      with Recovery Act requirements (see findings 2 and 3).




                                                 15
Separate Communication of
Minor Deficiencies

           Minor internal control and compliance issues were reported to the auditee in a
           separate letter, dated September 27, 2012.




                                           16
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS


                             Recommendation       Unsupported
                                 number               1/
                                   1A               $1,369,308



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                           Auditee Comments

             September 25, 2012



             Mr. Ronald J. Hosking
             Regional Inspector General for Audit
             Office of Audit Region 7
             U.S. Department of Housing and Urban Development
             400 State Street, Suite 501
             Kansas City, Kansas 66101

                                                                       RE:    City of St. Louis
                                                                              2009 American Recovery and
                                                                              Reinvestment Act
                                                                              Community Development
                                                                              Block Grant
                                                                              (CDBG-R) Audit

             Dear Mr. Hosking:

                      Thank you for this opportunity to provide comment on the discussion draft of the
             above-referenced Audit Report for the City's American Recovery and Reinvestment Act
             Community Development Block Grant (CDBG-R) program. We also wish to express our
             thanks to xxxxx xxxx, xxxxxxxx xxxxxxx, and xxxxx xxxxx of your staff for taking the time
             to review the draft report with staff at the City's Community Development Administration.

                      It is our understanding that the objectives of the audit were to determine whether the
             City complied with applicable Recovery Act requirements for CDBG-R and properly reported
             its Recovery Act activities.

                      The following are our responses to the findings and recommendations listed in the
             draft report.

             Response to Finding 1: The City approved two contracts that did not comply with
             Federal procurement requirements.

             With respect to Finding 1, Contract 1, the auditors concluded that a contract between XXXX
             XXXX XXX, Inc. (XXX) and the project design/build firm did not satisfy CDBG-R funding
             procurement requirements. We believe that contract did satisfy those requirements for the
             following reasons.




                                                   18
Ref to OIG Evaluation                           Auditee Comments

                       xxx entered into a contract with a minority-owned design/build firm in June 2005 for
             the design and renovation of the xxxxx xxxxx xxxxxx School to create the xxxxx xxxx xxxx
             Cultural, Educational and Business Center. The renovation of the project had three distinct
             phases.

                       The first phase of construction was funded by monetizing State of Missouri
             Brownfield tax credits. Proceeds from those credits allowed xxx to complete interior
             demolition and environmental hazards remediation. That phase was completed in 2009. In
             2010, five years following the initiation of construction, the CDBG-R grant provided funding
             for the second phase of construction, which entailed stabilization of the building envelope.
Comment 1    The City approved a sole source procurement for the project because the Recovery Act
             emphasized that available funds should be spent on “shovel-ready” projects where job-
             producing construction or other activities could immediately commence, because construction
             had already commenced under a pre-existing contract and the second phase of that project was
             ready to proceed, and because xxx provided a project manual which included Instructions to
             Bidders as confirmation that all construction work had been or would be competitively bid by
             the design/build firm with xxx's input. The City will obtain copies of all competitive bids and
             subcontract awards. Should these documents prove insufficient as a basis to demonstrate cost
             reasonableness, the City, using in-house staff, will conduct a cost analysis and submit that
             analysis to HUD.

                       With respect to Finding 1, Contract 2, CDBG-R funds were used for the
             infrastructure on xxxx Avenue at the location of a new campus for xxxxx xxxxxxx College in
             a very underserved neighborhood. We believe that contract did satisfy those requirements, for
             the following reasons.

                       The xxxxxx College building was under construction and scheduled to open in Fall,
             2010, but funds were not available for the sidewalks and other public improvements that
Comment 2    would allow students, faculty and staff to access and safely use the new building. Because the
             design of the public improvements work was complete and the project was therefore shovel-
             ready and because construction of the sidewalks would both provide immediate jobs and
             complement a larger project that would help the neighborhood’s low and moderate income
             residents access training that would assist those residents in becoming employed, CDBG-R
             funding was made available for the construction of those sidewalks. But completion of the
             sidewalks in time for the commencement of the fall semester was essential to the project’s
             success. In order to complete the sidewalks and other infrastructure work in time, the City
             assigned the work on an emergency basis to a firm that had previously been awarded an
             advertised and competitively bid citywide contract for the construction of public
             improvements throughout the year. Since that contract had recently expired when the xxxxxxx
             College work was ready to be added, City staff prepared a contract extension to cover the
             period of the emergency work. We agree that the extension was never fully executed.
             However, the amounts paid to the contractor for the infrastructure work were consistent with
             the amounts in the separately solicited successful bid which the City did not accept. The
             reason the City did not accept that bid is that a contract pursuant to that bid could not have
             been executed and the work completed in time for the




                                                   19
Ref to OIG Evaluation                           Auditee Comments

             opening of the building and the start of the fall semester. Had that work not been completed in
             time for the opening, the timely benefits sought to be achieved by the CDBG-R program
             would have been lost. The City will provide supporting documentation to HUD demonstrating
             (a) that procurement was conducted for the citywide public improvements contract, and (b)
             that costs for the xxxxxxxx College CDBG-R work were consistent with the prices in that
             previously procured contract.

             Response to Finding 2: The City did not adequately enforce Davis-Bacon Act or Section 3
             requirements.

                       In order to maximize the use of CDBG-R funding for ten shovel-ready public works
             projects, planning and execution efforts were expedited. Davis-Bacon requirements were
             included in all, and Section 3 requirements were included in the majority of CDBG-R
             construction project documents. Shovel-ready projects and rapid expenditures to create jobs
             were emphasized in ARRA. In the rush to expedite contract execution and completion in time
             to meet CDBG-R deadlines, the City agrees that it did not emphasize the Davis-Bacon and
Comment 3    Section 3 aspects of the CDBG-R funding agreements to a sufficiently significant extent.
             Through December 31, 2011, with nine months remaining in the program, the City achieved
             22% participation by Section 3 certified individuals, and 25% of construction dollars were
             paid to Section 3 certified businesses. We believe that the level of Section 3 participation is
             adequate under the circumstances, and we are continuing to document Davis-Bacon
             compliance as further explained below.

             Davis-Bacon

                      Efforts are continuing to obtain and review certified payrolls from all general
             contractors and subcontractors who received CDBG-R funding to ensure that prevailing wages
             were paid to all workers and that any wage restitution owed is paid. The City will monitor
Comment 4    progress and submit a monthly status report to HUD until all parties are satisfied that the
             Davis-Bacon requirements have been met.

                      The City has written procedures for enforcing and monitoring Davis-Bacon
             compliance. The CDBG-R deadlines and the one-time nature of some of the contracts
             impacted the collection of the required reports. CDBG-R deadlines also made it difficult to
Comment 5    conduct the typical number of site inspections and interviews with workers on the sites. Under
             ordinary circumstances, the City would have conducted all of the interviews and site visits
             specified in our procedures.

             Section 3

             Though City staff were very much aware of Section 3 requirements, using CDBG-R funding
             for shovel-ready construction projects and meeting the associated CDBG-R deadlines required
             that Section 3 planning efforts be expedited. As noted above, shovel-ready projects and rapid
             implementation were emphasized in the ARRA appropriations, and deadlines for




                                                   20
Ref to OIG Evaluation                           Auditee Comments

             contracting and expenditure were tight. For some of the City’s shovel-ready CDBG-R
             projects, construction project documents had already been completed. Some of those
             documents were not adequately amended to include the CDBG-R requirements. The
             necessary fast-tracking for such projects also resulted in the lack of Section 3 language in four
             contracts.

                       Although the City did fall short of its 30% goal by 8% for individuals and 5% for
Comment 6    businesses, Section 3 targets are goals rather than quotas. The City did emphasize Section 3
             requirements to the extent possible within the deadline constraints and achieved 22% Section 3
             participation by certified individuals as of December 31, 2011. As of December 31, 2011,
             25% of construction dollars were paid to Section 3 certified businesses.

                       The City prepares annual Section 3 reports for many federal funding sources where
             Section 3 requirements are applicable. The deadline for submission of Section 3 reports for
             all of those other funding sources is March 31, and CDA was not aware of the earlier deadline
             of January 10 for CDBG-R. The City will submit its 2012 CDBG-R Section 3 report no later
             than January 10, 2013.

             Finding 3: The City did not accurately or completely report its Recovery Act activities.

                       The City concurs with this finding in part, but wishes to stress that CDBG-R
             reporting requirements evolved over a relatively long period of time. Although staff learned
             more about the reporting requirements during the course of the CDBG-R program and
Comment 7    identified prior quarter reporting errors based on that new information, the
             federalreporting.gov system did not allow the City to correct any information on prior
             quarter reports. The City will work closely with HUD to correct the information in the
             reporting system so that transparency goals are met and the many jobs created for the
             citizens of the City of St. Louis by CDBG-R funds are officially recorded.

                      We note the recommendation stated several times in the discussion draft that training
             be provided to City staff on various aspects of federal regulatory compliance. Please know
             that we welcome the opportunity for such training and look forward to taking advantage of
             what HUD is able to offer.

                       The CDBG-R program provided a valuable and much-appreciated boost to economic
             recovery efforts in the City of St. Louis. Using these funds to create needed jobs, we were also
             able to address deferred infrastructure projects, provide affordable housing, make investments
             in long-term energy conservation and sustainability and help with neighborhood services for
             low and moderate income persons. We are very grateful for the assistance provided by
             Congress and by HUD.




                                                   21
Ref to OIG Evaluation                          Auditee Comments

                       Please feel free to contact me if you have any questions. We thank you again
             for the opportunity to provide this response and for the courtesy demonstrated by your
             staff.

                                                                  Sincerely,



                                                                  Jill Claybour
                                                                  Acting Executive Director

             copy:   The Honorable Francis G. Slay
                     Ms. Dee Ann Ducote




                                                  22
                         OIG Evaluation of Auditee Comments

Comment 1   Federal procurement requirements as well as the City's agreement with the non-
            profit required it to solicit competitive bids for the builder. CDBG-R funds
            cannot be used for procurements that do not meet federal procurement
            requirements, no matter when the renovations were initiated. Even though the
            Recovery Act emphasized that funds should be spent on “shovel-ready” projects,
            it did not excuse the City from complying with federal procurement
            requirements. Furthermore, the non-profit agreed to advertise the solicitation and
            award the contract for a builder to the lowest responsive bidder, which it did not
            do.

Comment 2   The City allowed the work to be done under an expired contract. It could not
            show that it complied with federal procurement requirements since it did not have
            an executed contract to cover the work done. The City did not provide us with
            details of the successful bid that it did not accept and even then it still did not
            complete the project until October 11, 2010, well after the fall semester had
            started.

Comment 3   Even though the Recovery Act emphasized that funds should be spent on “shovel-
            ready” projects, it did not excuse the City from following Section 3
            requirements. Since Recovery Act funding is specifically intended to create jobs
            and other economic opportunities for those most impacted by the recession,
            compliance with the requirements of Section 3 is critical. The Recovery Act does
            not increase or reduce each recipient’s Section 3 responsibilities.

Comment 4   These actions should satisfy our audit recommendation related to prevailing
            wages.

Comment 5   The City must ensure that it follows its written procedures to ensure Davis-Bacon
            compliance.

Comment 6   While the Section 3 targets are goals rather than quotas, it is required that the City
            include the pertinent Section 3 clause in all its contracts and when it falls short of
            the targets, document reasons they could not be reached. If it had done so, the
            City may have reached the Section 3 targets.

Comment 7   This action should satisfy our audit recommendation related to reporting errors.




                                              23
